0

BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief of Fraternity Forward Coalition and
Fraternal Housing Association as Amici Curiae
Supporting Petitioner in 21-113, VJ-Eighty
Corporation v. City of Bloomington Board of Zoning
Appeals, was sent via Next Day Service to the U.S.
Supreme Court, and 3 copies were sent via Next Day
Service and e-mail to the following parties listed
below, this 26th day of August, 2021:
Robert Stanton Jones
Arnold & Porter Kaye Scholer LLP
601 Massachusetts Ave, NW
Washington, DC 20001
(202) 942-5563
Stanton.Jones@arnoldporter.com
Counsel for Petitioner
Philippa M. Guthrie
City of Bloomington Legal Dept.
401 N. Morton St., Ste 220
Bloomington, IN 4 7 404
(812) 349-3426
legal@bloomington.in. gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

(800) 890.5001
www.beckergallagher.com

8790 Governor's Hill Drive
Suite 102
Cincinnati, Ohio 45249

Franklin Square
1300 I Street, NW, Suite 400E
Washington, DC 20005

Daniel J. McCarthy
Counsel of Record
McCarthy Law Office
225 West Court Street,
Suite 300
Cincinnati, OH 45202
(513) 815-7006
mccarthy@danmccarthylaw.com

Counsel for Amici Curiae

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 26, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

{lu~ d-6 1 J6 d/

d4~- 'l a ~

Notary Public
[seal]

,JOHN 0. G,1-1LLJ.GHEA
Notary Public, Slate of Ohio
My Commission Expires
rebn,ary 14, 2'123

